TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                Customer Accuracy at
                            Taxpayer Assistance Centers
                             Showed Little Improvement
                            During the 2005 Filing Season



                                         September 2005

                              Reference Number: 2005-40-146




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Web Site          | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 8, 2005


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                         Pamela J. Gardiner
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Customer Accuracy at Taxpayer Assistance
                               Centers Showed Little Improvement During the 2005 Filing Season
                               (Audit # 200540010)

 This report presents the results of our review of the Internal Revenue Service (IRS) Taxpayer
 Assistance Centers (TAC). The overall objective of this review was to determine whether
 taxpayers receive quality service, including correct answers to their tax law questions, when
 visiting the IRS TACs.1 We also determined whether assistors were professional and courteous
 and whether the amount of time auditors had to wait for service was appropriate. In addition, we
 evaluated whether TAC addresses and office hours made available to taxpayers were accurate
 and all taxpayers were provided an opportunity to participate in the Customer Satisfaction
 Survey at the TACs.

 Synopsis
 Providing quality customer service is the IRS’ first step to achieving taxpayer compliance. The
 complexity of the tax law has made it even more important that the IRS ensure tax assistance is
 available to all taxpayers, since mistakes and misinformation can easily contribute to
 noncompliance. Taxpayers have several options to choose from when they need assistance from
 the IRS, including face-to-face assistance at the TACs. According to the IRS, the TACs served




 1
  IRS employees, called assistors, work in the TACs helping taxpayers by interpreting tax laws and regulations,
 preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services
 designed to minimize the burden on taxpayers in satisfying their tax obligations.
                           Customer Accuracy at Taxpayer Assistance Centers
                         Showed Little Improvement During the 2005 Filing Season



approximately 3.5 million taxpayers during the 2005 Filing Season;2 approximately 679,000 of
these taxpayers visited for assistance with the tax law.
Taxpayers are continuing to receive inaccurate answers to their tax law questions. Assistors
correctly answered 66 percent of the 196 tax law questions auditors asked during the
2005 Filing Season. Although this is comparable to our results from the 2004 Filing Season, the
IRS continues to experience nominal improvement in decreasing the number of incorrect
responses given. In addition, the IRS did not achieve its Fiscal Year 2005 accuracy rate goal of
81 percent.
We believe this happens because assistors are not using the required tools. Other contributing
factors include the complexity of the tax law and the number of potential questions assistors have
to be prepared to answer. For example, assistors are trained and expected to be knowledgeable
in 318 tax law topics with 395 subtopics. They are expected to be able to respond to taxpayer
issues for the current and prior tax years.
The Treasury Inspector General for Tax Administration (TIGTA) uses the number of correctly
answered questions divided by the total number of questions asked to calculate and report
accuracy rates. The IRS continues to disagree with this methodology. When responding to
TIGTA reports or reporting its outcome measure, Field Assistance Accuracy of Tax Law
Contacts, the IRS modifies TIGTA accuracy rates by excluding in the rate calculation those
questions for which assistors did not provide service or referred auditors to toll-free telephone
numbers or publications. The IRS does not believe referring taxpayers or failure to provide
service is the same as not providing a correct tax law answer. Excluding these questions from
the calculations and including only those questions to which the assistors provided answers
raises the accuracy rate for the 2005 Filing Season from 66 to 75 percent.
To measure its customer service, beginning in Fiscal Year 2004, the Field Assistance Office
began implementation of the Embedded Quality system. We believe this is a positive step in
establishing a standardized process to improve accuracy. However, after we applied the
Embedded Quality system methodology to calculate our results, the accuracy rate decreased
from 66 to 39 percent. When calculating the tax law accuracy rate using the Embedded Quality
system, the IRS considers a response “complete and correct” only when the assistor obtains
sufficient information to answer the question and gives a correct and complete answer.
Although challenges remain to improve accuracy, the IRS continues to improve other aspects of
customer service for taxpayers that visit the TACs to ask tax law questions. Assistors provide
assistance generally within 30 minutes and treat taxpayers courteously and professionally. In
addition, the TACs are easier to locate since the IRS ensures TAC addresses have been
accurately posted to the IRS Internet web site (IRS.gov), toll-free telephone numbers, and
automated telephone systems. For 39 (78 percent) of the 50 TACs visited, the hours of operation


2
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        2
                     Customer Accuracy at Taxpayer Assistance Centers
                   Showed Little Improvement During the 2005 Filing Season



matched those posted on IRS.gov or provided through the toll-free telephone numbers. This is a
15 percent improvement from the 2004 Filing Season. However, auditors were only offered a
Customer Survey Comment Card for 61 percent of the visits. The IRS uses Comment Cards to
obtain taxpayers’ feedback regarding the quality of customer service they received at the TACs.

Recommendations
We made recommendations to address these issues in prior reports; as a result, we are making no
additional recommendations in this report.

Response
IRS management is pleased that our report highlights a number of operational improvements.
They believe these improvements will eventually yield measurable gains in tax law accuracy. In
addition, while differences remain in how the IRS and TIGTA believe tax law accuracy should
be calculated, IRS management believes that Contract Recording will bring the IRS closer to
determining statistically valid tax law accuracy levels. Lastly, management agrees that if IRS
employees continue to answer tax law questions without using the tools provided to them, the
IRS will not achieve its accuracy goals. Management’s complete response to the draft report is
included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 927-0597.


Attachment




                                                                                                3
                            Customer Accuracy at Taxpayer Assistance Centers
                          Showed Little Improvement During the 2005 Filing Season




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Taxpayers Continue to Receive Inaccurate Answers to
          Tax Law Questions .......................................................................................Page 5
          Taxpayers Continue to Receive Improved Availability of Service When
          Visiting the Taxpayer Assistance Centers ....................................................Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Outcome Measures...............................................................Page 18
          Appendix V – Taxpayer Assistance Centers Visited
          During the 2005 Filing Season .....................................................................Page 19
          Appendix VI – Accuracy Rates by Tax Law Topic
          During the 2005 Filing Season .....................................................................Page 20
          Appendix VII – Internal Revenue Service
          Embedded Quality Business Integration.......................................................Page 22
          Appendix VIII – Management’s Response to the Draft Report ...................Page 24
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season




                                             Background

Providing quality customer service is the Internal Revenue Service’s (IRS) first step to achieving
taxpayer compliance. The IRS estimated it would take individual taxpayers from 3 hours and
46 minutes to prepare the simplest 2004 tax return to almost 27 hours1 to complete a more
complex tax return with schedules. The complexity of the tax law
has made it even more important that the IRS ensure tax assistance       The estimated time it takes
is available to all taxpayers. Mistakes and misinformation can           the average taxpayer to
easily contribute to noncompliance.                                      prepare a tax return has
                                                                         risen 45 percent since
Taxpayers have several options to choose from when they need             1991.                   26.48
assistance from the IRS, including face-to-face assistance at
a Taxpayer Assistance Center (TAC). According to the IRS, the
                                                                               18.24
TACs served approximately 3.5 million taxpayers during the
2005 Filing Season.2 Approximately 679,000 of these taxpayers
visited for assistance with the tax law.3 The Field Assistance
Office4 has overall responsibility for about 400 TACs
in 5 geographical areas throughout the United States (U.S.). In
May 2005, the IRS announced its plans to close 68 TACs in
                                                                           1990 Tax Return 2004 Tax Return
Fiscal Year 2006.                                                              Average Number Of Hours

The Field Assistance Office’s mission is to minimize the burden to         Source: The IRS.
taxpayers in satisfying their tax obligations by providing the right
services at the right location at the right time. To accomplish its mission, the Field Assistance
Office provides professional assistance, education, and compliance services to taxpayers that
desire face-to-face interaction. IRS employees, called assistors, work in the TACs helping
taxpayers by interpreting tax laws and regulations, preparing certain tax returns, resolving
inquiries on taxpayer accounts, and providing various other services designed to minimize the
burden on taxpayers in satisfying their tax obligations. Operating guidelines require assistors to
identify themselves, provide their identification numbers either verbally or visually to all
taxpayers, and assist taxpayers in a professional and courteous manner.


1
  Included in the estimate are the U.S. Individual Income Tax Return (Form 1040), Itemized Deductions
(Schedule A), Interest and Ordinary Dividends (Schedule B), Capital Gains and Losses (Schedule D), and Earned
Income Credit (Schedule EIC).
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  The IRS provided the number of taxpayers that visited the TACs for assistance with the tax laws. We did not
verify the accuracy of the number.
4
  The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
                                                                                                            Page 1
                           Customer Accuracy at Taxpayer Assistance Centers
                         Showed Little Improvement During the 2005 Filing Season



Because of the complexity of the tax law and the need to assist millions of taxpayers with tax law
questions, assistors are not trained to answer all types of tax law questions. Instead, they are
trained on specific tax topics and are authorized to answer only those questions within this
expertise. These are called in-scope questions; they include specific tax law topics related to
lines on the Form 1040, such as income, filing status, exemptions, deductions, and credits.

          Figure 1: Taxpayer Asking a Tax Law                           When a taxpayer walks into a TAC,
                    Question at a TAC                                   he or she uses the Q-MATIC5
                                                                        system to select the type of
      Taxpayer          Greeter                Taxpayer                 assistance desired (e.g., return
      Enters            Determines             Takes
                        Tax Law
                                                                        preparation, tax law question,
      the TAC                                  Number
                        Issue                                           account inquiry, payment). In some
                                                                        larger TACs, an IRS employee
                                                                        called a screener determines the
                                                                        reason for a taxpayer’s visit and
                                                                        makes the Q-MATIC system choice
                                                                        for the taxpayer. Once a choice is
                                          Assistor Calls
                                          Taxpayer                      made, the taxpayer is issued a
             Assistor                     From the                      number and waits for assistance
             Answers Tax
             Law Question
                                          Queue                         until that number is called. Figure 1
                                                                        shows an example of how this
                                                                        works for a taxpayer asking a tax
                                                                        law question.
                                                               When assisting taxpayers, assistors
  Source: The IRS Field Assistance Office
                                                               must first determine if the tax law
                                                               questions are in-scope. If the
questions are in-scope, assistors are required to use the Publication Method Guide (Guide) or tax
instructions, forms, and publications to provide the answers. The Guide contains over
1,000 pages and covers approximately 77 tax law topics. Assistors are required to use the Guide
as a tool to navigate through the complex maze of tax laws and computations. The Guide is
available either in paper or electronically. The paper version includes the same information as
the electronic version but is maintained in binders. Assistors in smaller TACs are more likely to
use the paper version because computers may not be readily available at the counter.
For each in-scope tax law topic, an assistor uses the Guide to ask the taxpayer approximately
9 to 37 conditional questions to determine the correct answer to the tax law question. In
addition, the Guide includes excerpts from tax publications assistors can use to “walk” the
taxpayer through to provide an answer to the question. The dependency topic in the Guide
covers 14 pages and includes 37 conditional questions an assistor must ask to determine if the


5
    The Q-MATIC system is an automated queuing system used to control the flow of taxpayers waiting for assistance.
                                                                                                           Page 2
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season



taxpayer can claim the dependent exemption. For example, a taxpayer asks whether he or she
can claim his or her 19-year-old child as a dependent. The assistor uses the Guide for the
following:
First.       To ask if the child has a valid Social Security Number and for the amount of the
             taxpayer’s adjusted gross income6 because exemptions are phased out if the adjusted
             gross income exceeds filing status amounts.
Second.      If the child has a valid Social Security Number and the adjusted gross income is
             within appropriate limits, five more tests must be met for the taxpayer to claim the
             child as a dependent.
             1. Member of Household or Relationship Test. The assistor asks for information
                concerning the nature of the relationship (son, daughter, niece, etc.) or, if the child
                is not a qualifying relative, how long the child has lived in the home with the
                taxpayer.
             2. Citizenship Test. The assistor asks if the child is a U.S. citizen or resident alien.
             3. Joint Return Test. The assistor asks if the child is single or married.
             4. Gross Income Test. The assistor asks for the amount of the child’s gross income.
             5. Support Test. The assistor asks for the amount of support the taxpayer provided
                the child during the tax year.
Third.       If all five tests are met, the assistor advises the taxpayer that he or she may claim the
             child as a dependent.
When receiving out-of-scope questions, assistors are required to offer to call the appropriate
IRS toll-free telephone number on behalf of the taxpayers or to submit the questions in writing to
subject-matter experts via the Internet (called R-Mail). Questions submitted via R-mail are
assigned to IRS employees and taxpayers are to receive responses within 15 business days.
To measure its customer service, beginning in Fiscal Year 2004, the Field Assistance Office
began implementation of the Embedded Quality system, which links employee performance to
organizational results related to the quality of customer service. This method was designed to
distinguish between “wrong” answers and procedural errors that do not affect the accuracy of the
answer.
Currently, the Embedded Quality system requires TAC managers to observe assistors’ contacts
with taxpayers and measure performance against predetermined standards. To accomplish this,
Field Assistance Office managers currently observe a statistical sample of assistors’ interactions


6
 The adjusted gross income is a taxpayer’s gross income for the year adjusted for certain exclusions from income
provided for in the Internal Revenue Code.
                                                                                                           Page 3
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season



with taxpayers using approximately 100 attributes to identify specific aspects of the
assistor/taxpayer interaction that need to be considered when measuring the quality of customer
service. The attributes are divided into five quality measures: Customer Accuracy, Regulatory
Accuracy, Procedural Accuracy, Professionalism, and Timeliness. The IRS plans to baseline
Embedded Quality system measurements in Fiscal Year 2006. See Appendix VII for a synopsis
of the Embedded Quality Business Integration.
The Customer Accuracy, Professionalism, and Timeliness measures are reported to the
IRS Commissioner as part of the IRS’ balanced measures (employee satisfaction, customer
satisfaction, and business results). The IRS uses these three balanced measures to gauge
organizational and employee performance. The Regulatory Accuracy and Procedural Accuracy
measures are reported internally to IRS management to identify trends and training opportunities.
The Customer Accuracy measure is also reported externally to IRS stakeholders (e.g., the
Congress and the Government Accountability Office) and as part of the reporting requirement of
the Government Performance and Results Act of 1993.7
We conducted this audit in the IRS Customer Assistance, Relationships, and Education function
in the Wage and Investment Division during the period January through May 2005. Treasury
Inspector General for Tax Administration (TIGTA) auditors developed 46 scenarios around
specific tax topics designed to require assistors to ask questions, for example, to determine
taxpayers’ eligibility for deductions and credits. From January through April 2005, using the
46 scenarios, auditors made 104 anonymous visits generally asking 2 questions each at 50 TACs
located in 16 states. Since we judgmentally selected the TACs, the results cannot be projected to
all TACs. See Appendix V for specific cities and states visited.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




7
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                            Page 4
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season




                                        Results of Review

Taxpayers Continue to Receive Inaccurate Answers to Tax Law
Questions

Sixty-six percent (129 of 196) of the tax law questions asked during the 2005 Filing Season
review were answered correctly, compared to 67 percent in the 2004 Filing Season. The IRS’
goal for Field Assistance Accuracy of Tax Law Contacts for Fiscal Year 2005 is 81 percent.
Figure 2 shows the detailed results for the 2002 through 2005 Filing Seasons.
                          Figure 2: Comparison of Accuracy Rates for
                             the 2002 through 2005 Filing Seasons8

                                70%


                                60%


                                50%


                                40%


                                30%


                                20%


                                10%


                                 0%
                                        Correctly    Correctly    Incorrectly   Incorrectly
                                                                                              Service Not
                                        Answered    Referred to   Answered      Referred to
                                                                                               Provided
                                        Questions    Toll-Free    Questions     Publication
                   Filing Season 2002     51%          0%            29%           20%            1%
                   Filing Season 2003     70%          1%            26%           3%             0%
                   Filing Season 2004     67%          7%            21%           2%             3%
                   Filing Season 2005     66%          3%            21%           8%             2%


                Source: Anonymous visits performed by TIGTA auditors


8
 The accuracy rates in the graph represent percentages that may not add to 100 due to rounding. “Services Not
Provided” occurred when the IRS assistor chose not to answer the question because he or she had not received the
current tax year Guide or assumed auditors did not have information needed to answer all probing questions.
                                                                                                            Page 5
                     Customer Accuracy at Taxpayer Assistance Centers
                   Showed Little Improvement During the 2005 Filing Season



To calculate and report accuracy rates, we used the number of correctly answered questions
divided by the total number of questions asked. The IRS continues to disagree with this
methodology. When responding to TIGTA reports or reporting its outcome measure, Field
Assistance Accuracy of Tax Law Contacts, the IRS modifies TIGTA accuracy rates by excluding
from the rate calculations those questions for which assistors did not provide service or referred
auditors to toll-free telephone numbers or publications. Excluding these questions from the
calculations raises the TIGTA accuracy rate for the 2005 Filing Season from 66 to 75 percent.
The IRS does not believe referring taxpayers or failure to provide service is the same as not
providing a correct tax law answer. The IRS has used TIGTA results with this modification
when reporting Field Assistance Accuracy of Tax Law Contacts for Fiscal Years 2003 and 2004.
When calculating the tax law accuracy rate using the Embedded Quality system, the IRS
considers a response “complete and correct” only when the assistor obtains sufficient
information to answer the question and gives a correct and complete answer. The IRS’
definition of accuracy does not take into consideration any additional issues or procedures that
do not directly affect the taxpayer. To ensure the response is considered correct and complete,
assistors must follow all of the following Embedded Quality system requirements and correctly
apply the tax law:
   •   Use the Guide or obtain the appropriate publication.
   •   Discuss specific information related to the topic.
   •   Ask all appropriate questions to obtain facts.
   •   Respond to the taxpayer’s issue or question.
Using the Embedded Quality system methodology to calculate TIGTA results for this review, the
accuracy rate decreases from 66 to 39 percent. This happens because answers are rated incorrect
if the assistors did not properly use the tools provided and did not ask sufficient probing
questions. In addition, the total number of questions used in the calculation is reduced from
196 to 171 to exclude those questions for which auditors were referred or not provided service.
Figure 3 shows the breakdown of the accuracy rates for this period, first using the TIGTA
methodology we used for prior reviews, second using the TIGTA methodology as modified by
the IRS, and third using the IRS Embedded Quality system methodology.




                                                                                           Page 6
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season



                         Figure 3: Responses to 196 Tax Law Questions


                COMPARISON OF TIGTA AND IRS ACCURACY RATES
                              2005 Filing Season
                                                                            IRS
                                                        IRS             EMBEDDED
                                TIGTA                 MODIFIED        QUALITY SYSTEM
                             METHODOLOGY            METHODOLOGY       METHODOLOGY

                            Number    Percentage Number Percentage Number       Percentage

         Correctly
                             129         66%         129       75%       67        39%
         Answered
         Incorrectly
                              42         21%          42       25%      104        61%
         Answered
         Correctly
                              5          3%           0        0%        0          0%
         Referred
         Incorrectly
         Referred to          16         8%           0        0%        0          0%
         Publication
         Service Not
                              4          2%           0        0%        0          0%
         Provided

         Total Questions,
             Overall         196        66%          171       75%      171        39%
          Accuracy Rate
       Source: Anonymous visits performed by TIGTA auditors.


Accuracy increases when assistors take the time to follow required procedures
and ask probing questions

Assistors continued to respond to tax law questions without taking the time to use the required
tools to ask all the probing questions outlined in the Guide. The risk that taxpayers will receive
inaccurate answers is increased when assistors do not follow required procedures and take the
time to ask probing questions. The accuracy rate was 78 percent when assistors used the
required tools; the accuracy rate was 36 percent when assistors did not use the required tools.
Figure 4 shows a comparison of tax law questions answered and accuracy rates when assistors
use the Guide.




                                                                                             Page 7
                                                        Customer Accuracy at Taxpayer Assistance Centers
                                                      Showed Little Improvement During the 2005 Filing Season



                                                   Figure 4: Tax Law Accuracy When Using Required Tools

                                                                  Questions Guide Used               Accuracy Rate
                                             120                                                                            90%
                                                            113
                                                                                                                            80%
                                             100
        Guide Used to Respond to Questions




                                                      78%                                                                   70%

                                             80                                                                             60%




                                                                                                                                  Accuracy Rate
                                                                                                                            50%
                                             60
                                                                                                                            40%

                                             40                                                                             30%

                                                                        23
                                                                                                                            20%
                                             20
                                                                  16%                                                       10%
                                                                                         1            7
                                                                               1%                                0   0%
                                              0                                                 5%                          0%
                                                      Correct      Incorrect        Referral   Refer to Pub   Service Not
                                                                                                               Provided

        Source: Anonymous visits performed by TIGTA auditors.

During our visits, auditors generally asked two questions. Assistors were more likely to use the
Guide only when answering the first questions. For example, when answering the first
questions, assistors used the Guide and/or a publication to answer 80 (80 percent) of the
100 questions. However, when auditors asked their second questions, which were occasionally
on different topics, assistors used the Guide to respond to only 64 (67 percent) of the
96 questions.
Assistors stated the Guide is too cumbersome and diminished their credibility. However, as we
have previously reported, accuracy goals will continue to be a challenge until IRS management
is able to change assistors’ behavior. While assistors believe the Guide is cumbersome, it is an
effective tool for ensuring the accuracy of tax law responses. When developing the scenarios for
this review, we followed the steps in the Guide and were able to determine the correct answer for
43 (93 percent) of the 46 scenarios. We identified errors in the Guide for three scenarios relating
to two tax law topics and brought this to the attention of the IRS to correct. As of April 2005,
assistors were mandated to use the Guide and warned there would be no deviation for failure to
comply with this requirement.


                                                                                                                                 Page 8
                                            Customer Accuracy at Taxpayer Assistance Centers
                                          Showed Little Improvement During the 2005 Filing Season



In addition, accuracy was 63 percent when assistors spent fewer than 30 minutes helping auditors
(an average of 14 minutes per question). In contrast, when an average of 41 minutes per
question was spent, accuracy increased to 86 percent. Figure 5 shows a comparison of the
accuracy rates for responses to tax law questions for various service time categories.
                                     Figure 5: Tax Law Accuracy by Time Spent With the Assistor

                                                   Accuracy Rate                 Number of Questions
                              100%                                                                             140
                                                                                  87%




                                                                                                                     Number of Questions per Service
                              90%
                                             117                                                        83%    120
    Accuracy Rate (Percent)




                              80%
                              70%                                                                              100
                                                              71%
                              60%                                                                              80
                                             60%




                                                                                                                                 Time
                              50%
                              40%                             58                                               60

                              30%                                                                              40
                              20%
                                                                                  15                           20
                              10%
                                                                                                        6
                               0%                                                                              0
                                            1-15            16-30                 31-45                46-60
                                                           Service Time (Minutes)
Source: Anonymous visits performed by TIGTA auditors.

We believe this happened because assistors did a better job of listening effectively, conducting
research, and using appropriate time to control the amount of dialogue with the taxpayer. All
three of these actions are Embedded Quality system attributes used to measure employee
performance.
The quality of service provided to taxpayers, as defined by the TIGTA, remains among the major
management challenges the IRS faces in Fiscal Year 2005. Taxpayers have several options to
choose from when they need assistance from the IRS. These options include walk-in service at
the TACs, toll-free telephone assistance, and email assistance on IRS.gov.9 A March 15, 2005,
The Wall Street Journal10 article reported the various levels of service reporters experienced
when they anonymously contacted the IRS for assistance with tax law questions. It reported that,
when an IRS assistor answered off the top of his or her head, he or she provided incorrect
information. Figure 6 is an excerpt from this The Wall Street Journal article.


9
  The IRS plans to discontinue email assistance in early Fiscal Year 2006 for customers living in the U.S. It will
continue to provide the service for taxpayers living abroad and military personnel.
10
   Reagan, Brad. 2005. “Getting Tax Advice From the Internal Revenue Service.” March 15, 2005, The Wall Street
Journal: D2.
                                                                                                                                 Page 9
                        Customer Accuracy at Taxpayer Assistance Centers
                      Showed Little Improvement During the 2005 Filing Season



                Figure 6: Comparison of Results Experienced by
    The Wall Street Journal Reporters When Seeking Assistance From the IRS




                TACs                         Toll-Free Telephone                            IRS.gov
   When an IRS employee                “Good. Specialists worked from a       “Good, although the responses
   “consulted a massive white          script but were able to give correct   consisted primarily of sections of
   binder to answer their questions,   answers and respond to follow-up       the tax code cut-and-pasted into an
   the assistor answered correctly.”   questions.”                            e-mail.”
   “The specialist blew two of the     “Waited on hold less than              “Received one reply in less than
   questions outright and stumbled     10 minutes on every call.”             two hours; another took more than
   through the others.”                                                       24 hours. You may have to wait
                                       “The best option for quick             two more days if you have a
   “Miserable. One office turned us    answers.”                              follow-up.”
   away, citing a three-hour wait.
   The next day, we waited almost                                             “The replies weren't always
   an hour.”                                                                  super-personalized but they always
                                                                              at least included the correct info --
   “The seeming advantage of                                                  even if it was sometimes buried in
   face-to-face interaction was                                               jargon.”
   undercut by the incorrect
   information.”
  Source: March 15, 2005, The Wall Street Journal: D2.

Accuracy increases when wait time at the TACs is less than 30 minutes

When wait time was 30 or fewer minutes, the accuracy rate was 67 percent. When auditors
waited more than 1 hour, the accuracy rate decreased to 61 percent. The Field Assistance Office
does not have a wait-time goal. The IRS believes a wait-time goal contributes to the inefficient
use of resources. However, our results show a potential connection between wait time and
accuracy. Figure 7 shows a comparison of the accuracy rates of responses to tax law questions
for various wait-time categories.




                                                                                                          Page 10
                                  Customer Accuracy at Taxpayer Assistance Centers
                                Showed Little Improvement During the 2005 Filing Season



                                      Figure 7: Walk-In Accuracy by Wait Time

                                          Accurate Rate                   Number of Questions
                    90%                                                                                 140
                                131




                                                                                                              Number of Questions per Wait Time
                    80%
                                               77%                                                      120
                    70%
                          66%                                                     63%             61%   100
   Accuracy Rates




                    60%

                    50%                                                                                 80
                                                                50%
                    40%                                                                                 60
                    30%
                                                                                                        40
                    20%                        22
                                                                                  19              18
                                                                                                        20
                    10%                                        6
                    0%                                                                                  0
                           1-15            16-30            31-45             46-60             >60
                                                    Wait Time (Minutes)
Source: Anonymous visits performed by TIGTA auditors.

We believe when assistors see taxpayers sitting in the TACs with long wait times they may shift
their focus from providing quality customer service to increasing the number of taxpayers
served. Furthermore, the mandated use of the Guide increases the time assistors interact with
taxpayers. The increase in service time will subsequently increase the wait time for taxpayers.

Accuracy decreases when tax law questions relate to certain tax law topics

Results indicate that the risk of an incorrect answer may be connected to specific tax law topics
such as the Earned Income Tax Credit and Alimony. Specifically, assistors incorrectly answered
42 questions; the percentage of inaccurate answers increased for 6 (60 percent) of 10 tax law
topics asked in the 2004 and 2005 Filing Season reviews. In addition, since the
2002 Filing Season, the percentage of incorrect answers has ranged between 21 and 29 percent.
We believe this happens because of the complexity of the tax law and the number of potential
questions assistors have to be prepared to answer.
For example, assistors are trained and expected to be knowledgeable in 318 tax law topics with
395 subtopics. They are expected to be able to respond to taxpayer issues for the current and
prior tax years. During this review, auditors that anonymously visited TACs asked IRS
employees pre-developed scenario questions related to 27 tax law topics. See Appendix VI for a
list of tax law topics.


                                                                                                             Page 11
                     Customer Accuracy at Taxpayer Assistance Centers
                   Showed Little Improvement During the 2005 Filing Season



Taxpayers Continue to Receive Improved Availability of Service When
Visiting the Taxpayer Assistance Centers

When taxpayers visit the TACs to ask tax law questions, they generally have to wait 30 or fewer
minutes before being served. During visits, auditors had similar experiences; wait times were
30 or fewer minutes for 78 percent of the visits. This is slightly lower than the 2004 Filing
Season results (83 percent); however, in the 2004 IRS Oversight Board Taxpayer Attitude
Survey, 66 percent of taxpayers responded they were willing to wait from 15 minutes to more
than an hour to speak with an assistor. We believe taxpayers experienced short wait times
because the Field Assistance Office had adequate staff available to handle the filing season
walk-in traffic.
Most assistors identified themselves as required and were courteous and professional when
responding to taxpayers’ questions. In addition, the IRS is also doing a better job ensuring the
addresses for the TACs are accurately posted to IRS systems for access by IRS employees and
taxpayers. Most addresses for the TACs visited during this review matched the addresses posted
on IRS.gov and provided through the toll-free telephone numbers.

Taxpayers visiting the TACs may continue to find offices not open

Of the 50 TACs visited, only 39 (78 percent) had hours of operation that matched those on
IRS.gov and the toll-free telephone numbers. However, this is a 15 percent improvement from
the 2004 Filing Season (10 percentage points from 68 to 78 percent). Taxpayers can access
IRS.gov and follow links to obtain the addresses and office hours of the TACs located in their
States. Taxpayers that do not have access to the Internet may call the IRS toll-free telephone
numbers or automated telephone messaging systems at the TACs to obtain this information.
Field Assistance Office operating procedures require TAC managers to ensure TAC hours
provided to taxpayers via IRS.gov and the toll-free telephone numbers are accurate and timely
updated. However, TAC managers did not always follow these procedures.

Taxpayers are still not always given the opportunity to provide customer
satisfaction feedback

In only 61 percent of the TACs visited were auditors offered Customer Survey Comment Cards.
This is comparable to the results of the 2004 Filing Season review. The IRS developed
Comment Cards to obtain feedback from taxpayers on the quality of service they received at the
TACs. Assistors are required to offer a Comment Card to every taxpayer who is provided
face-to-face service. However, assistors do not always follow these procedures. This reduces

                                                                                        Page 12
                     Customer Accuracy at Taxpayer Assistance Centers
                   Showed Little Improvement During the 2005 Filing Season



the effectiveness of the Customer Satisfaction Survey the IRS uses to measure the quality of
service at the TACs.
Obtaining sufficient customer feedback with which to appropriately measure customer
satisfaction at the TACs has remained a challenge. Customers are a vital source of feedback on
the performance of the organization. We believe the most valuable resource an organization can
have is a steady and credible flow of information between itself and its customers.




                                                                                         Page 13
                        Customer Accuracy at Taxpayer Assistance Centers
                      Showed Little Improvement During the 2005 Filing Season



                                                                                                Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers receive quality service,
including correct answers to their tax law questions, when visiting the Internal Revenue Service
(IRS) Taxpayer Assistance Centers (TAC).1 We also determined whether assistors were
professional and courteous and whether the amount of time auditors had to wait for service was
appropriate. In addition, we evaluated whether TAC addresses and office hours made available
to taxpayers were accurate and all taxpayers were provided an opportunity to participate in the
Customer Satisfaction Survey at the TACs.
To accomplish our objectives, we:
I.      Determined whether the IRS provided quality service and accurate responses to tax law
        inquiries at the 50 TACs visited from January through April 2005. Auditors visited
        10 TACs in each of the 5 areas.2 We judgmentally selected large, medium, and small
        TACs from each of the five areas based on the IRS Embedded Quality system accuracy
        results, number of taxpayer visits, and geographic proximity to each other to reduce
        travel time. We asked 196 tax law questions that individual taxpayers3 might ask. The
        questions were based upon the scope of services for tax law assistance prescribed in the
        2005 Field Assistance Office guidelines.
        A. Determined the quality of services provided by the assistors.
        B. Determined whether TAC addresses and office hours provided to taxpayers via the
           IRS Internet web site (IRS.gov), toll-free telephone numbers, and automated
           telephone messaging systems matched information posted at the TACs.
        C. Determined whether the Customer Survey Comment Cards were available at the
           TACs and offered to taxpayers.
        D. Made general observations of each TAC, such as the number of taxpayers waiting in
           line, the number of assistors helping taxpayers, handicap accessibility, the
           cleanliness/organization of the office, and parking fee requirements.



1
  IRS employees, called assistors, work in the TACs helping taxpayers by interpreting tax laws and regulations,
preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services
designed to minimize the burden on taxpayers in satisfying their tax obligations.
2
  See Appendix V for specific cities and States visited.
3
  Individual taxpayers are nonbusiness taxpayers that file U.S. Individual Income Tax Returns (Forms 1040, 1040A,
or 1040EZ).

                                                                                                         Page 14
                     Customer Accuracy at Taxpayer Assistance Centers
                   Showed Little Improvement During the 2005 Filing Season



II.    Calculated the accuracy rates of the responses using the Treasury Inspector General for
       Tax Administration’s previous methodology and the IRS’ modified and Embedded
       Quality system methodologies.
III.   Determined whether there are identifiable trends resulting from auditor visits to the
       TACs.




                                                                                           Page 15
                    Customer Accuracy at Taxpayer Assistance Centers
                  Showed Little Improvement During the 2005 Filing Season



                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula Johnson, Audit Manager
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Andrea Hayes, Lead Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
John Kirschner, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jean Bell, Auditor
Vacenessia Brown, Auditor
Jerry Douglas, Auditor
Roberta Fuller, Auditor
Kathy Henderson, Auditor
Sylvia Sloan-Copeland, Auditor




                                                                                         Page 16
                   Customer Accuracy at Taxpayer Assistance Centers
                 Showed Little Improvement During the 2005 Filing Season



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 17
                           Customer Accuracy at Taxpayer Assistance Centers
                         Showed Little Improvement During the 2005 Filing Season



                                                                                                  Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.

Type and Value of Outcome Measure:

•      Taxpayer Burden – Potential; 42 incorrect answers to tax law questions (see page 5).

Methodology Used to Measure the Reported Benefit:

If the accuracy results for the 196 tax law questions we asked during the 2005 Filing Season1 are
indicative of the actual responses taxpayers receive when they visit a Taxpayer Assistance
Center, we estimate 42 taxpayers could have received incorrect responses to tax law questions.




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.

                                                                                                             Page 18
                              Customer Accuracy at Taxpayer Assistance Centers
                            Showed Little Improvement During the 2005 Filing Season



                                                                                                       Appendix V

                     Taxpayer Assistance Centers Visited
                        During the 2005 Filing Season                                        1




                                                                    Canton                                 Hartford
                                                                   Columbus                               New haven
                                                                   Mansfield                              New London
                          Denver                Cedar Rapids                            New York 125th St.
                         Ft. Collins             Des Moines                             New York 44th St.
                                                  Waterloo                                West Nyack
                                                                                          White Plains

                                                Chesterfield
                                                 St. Louis                              Altoona
                                                                                       Harrisburg
                                                                                       Johnstown




                                                                                                               Dover, DE
                                                                                                             Georgetown, DE
                                                                                                              Baltimore, MD

                  Camarillo
                Laguna Niguel
                 Los Angeles                                                                             Fredericksburg
                 Palm Springs                                       Birmingham                              Hampton
                San Bernardino                                                                               Norfolk
                  San Diego                                                                                Richmond
                 San Marcos                                         Atlanta (Summit)
                Santa Barbara                                            Dalton
                                           Enid                          Macon
                                          Lawton                                                        Lakeland
                                       Oklahoma City                                                Maitland-Orlando
                                                                   Beaumont
                                           Tulsa                                                         Tampa
                                                                  Houston (SE)
                                                                  Houston (SW)
                                                                  Wichita Falls




1
    The filing season is the period from January through mid-April when most individual income tax returns are filed.

                                                                                                                       Page 19
                              Customer Accuracy at Taxpayer Assistance Centers
                            Showed Little Improvement During the 2005 Filing Season



                                                                                                 Appendix VI

                          Accuracy Rates by Tax Law Topic
                           During the 2005 Filing Season1

                                                       Correctly                             Incorrectly
                                                                                                           Service2
                              Questions   Correctly    Answered    Correctly   Incorrectly    Referred
    Tax Law Topics                                                                                           Not
                               Asked      Answered        but      Referred     Answered         to
                                                                                                           Provided
                                                      Incomplete                             Publication
    Adjustment to Income         2        2 (100%)       ---          ---          ---           ---         ---
    Adoption Credit              2        2 (100%)       ---          ---          ---           ---         ---
    Alimony                      6         2 (33%)       ---          ---       4 (67%)          ---         ---
    Amended Return               9         5 (56%)       ---          ---       3 (33%)          ---       1 (11%)
    Archer Medical Savings
                                 3         2 (67%)       ---          ---          ---           ---       1 (33%)
    Account Deduction
    Capital Gains/Losses         3         2 (67%)       ---          ---          ---        1 (33%)        ---
    Child Support                5         3 (60%)     2 (40%)        ---          ---           ---         ---
    Child Tax Credit             9         7 (78%)       ---          ---       1 (11%)       1 (11%)         ---
    Child Care Credit            3         2 (67%)       ---          ---       1 (33%)          ---         ---
    Dependents                   21       17 (81%)       ---          ---       4 (19%)          ---         ---
    Earned Income Tax
                                 22       16 (73%)       ---        1 (5%)      4 (18%)        1 (5%)        ---
    Credit
    Education Credit             9         8 (89%)       ---          ---       1 (11%)          ---         ---
    Elderly Credit               2         1 (50%)       ---          ---       1 (50%)          ---         ---
    Estimated Tax Penalty        10        4 (40%)     3 (30%)     1 (10%)       1(10%)       1 (10%)        ---
    Filing Status                13       11 (85%)     2 (15%)        ---          ---           ---         ---
    Gambling
                                 1        1 (100%)       ---          ---          ---           ---         ---
    Income/Losses
    Interest Income              5           ---       1 (20%)        ---       3 (60%)          ---       1 (20%)
                        3
    Itemized Deductions          16        6 (38%)       ---          ---       8 (50%)       2 (13%)        ---
    Lump Sum Distribution        6           ---       1 (17%)        ---       4 (67%)          ---       1 (17%)



1
  Percentages do not add to 100 due to rounding. The filing season is the period from January through mid-April
when most individual income tax returns are filed.
2
  The Internal Revenue Service assistor chose not to answer the question because he or she had not received the
current tax year Publication Method Guide or assumed the auditor did not have information needed to answer all
probing questions.
3
  Itemized Deductions include Charitable Contributions, Refinancing Points, and Uniforms.
                                                                                                            Page 20
                           Customer Accuracy at Taxpayer Assistance Centers
                         Showed Little Improvement During the 2005 Filing Season




                                                    Correctly                             Incorrectly
                                                                                                        Service2
                           Questions   Correctly    Answered    Correctly   Incorrectly    Referred
Tax Law Topics                                                                                            Not
                            Asked      Answered        but      Referred     Answered         to
                                                                                                        Provided
                                                   Incomplete                             Publication
Medical Expenses              4        4 (100%)       ---          ---          ---           ---          ---
Moving Expenses               1           ---         ---       1(100%)         ---           ---         ---
Retirement                    11        5 (45%)       ---        1 (9%)      4 (36%)        1 (9%)        ---
Sale of Home                  5        5 (100%)       ---          ---          ---            ---        ---
Sales Tax Deduction           4         3 (75%)       ---       1 (25%)         ---            ---        ---
Scholarship                   6         2 (33%)       ---          ---       2 (33%)       2 (33%)        ---
Social Security Income        13        4 (31%)      1 (8%)        ---        1 (8%)       7 (54%)        ---
Tax on Qualified Plans        5        5 (100%)       ---          ---          ---           ---         ---

Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




                                                                                                         Page 21
                        Customer Accuracy at Taxpayer Assistance Centers
                      Showed Little Improvement During the 2005 Filing Season



                                                                                   Appendix VII

                  Internal Revenue Service
             Embedded Quality Business Integration

To measure its customer service, the Internal Revenue Service (IRS) uses a quality measurement
system called the Embedded Quality system, which links employee performance to
                                            organizational results related to the quality of
          Figure 1: The EQBI                customer service. Beginning in 2005, the Field
                                            Assistance Office, the IRS office responsible for
                                            overseeing the Taxpayer Assistance Centers (TAC),
                   Contact
                   Recording
                                            began implementation of the Embedded Quality
                                            Business Integration (EQBI). Briefly described
                                            below are the three key components of the EQBI.
         Embedded
         Quality
                      EQBI         Queuing
                                   Management
                                                Contact Recording captures the audio portion of the
                                                employee/customer interaction, synchronized with
                                                computer screen activity, for replay and quality
                    E-Performance
                    Based Individual            review. Contact Recording is being piloted in seven
                    Training                    TACs and is expected to be rolled out to all TACs in
                                                Fiscal Year (FY) 2008.
    Source: Field Assistance Office.
                                            Queuing Management efficiently directs taxpayers
to the right employee, based on tax issue. Currently, Queuing Management is available in most
TACs and will be available in all by the end of FY 2006.
Electronic Performance (E-Performance)-Based Individual Training identifies employee
training needs and delivers targeted training. This portion of the EQBI is in its early stages.
In October 2003, the Field Assistance Office began implementing the Embedded Quality system
component of the EQBI. It began collecting data in April 2004. The Embedded Quality system
requires TAC managers to observe employee contact with taxpayers and measure performance
against predetermined standards. To accomplish this, TAC managers are to observe a statistical
sample of TAC assistors’ interactions with taxpayers and document the results on a Data
Collection Instrument. The Data Collection Instrument contains approximately
100 evaluative attributes that identify specific aspects of a contact that need to be considered
when measuring the quality of customer service. These attributes are mapped to the employee’s
Critical Job Elements that are divided into five quality measures:




                                                                                            Page 22
                         Customer Accuracy at Taxpayer Assistance Centers
                       Showed Little Improvement During the 2005 Filing Season



•   Customer Accuracy – giving the taxpayer the correct answer with the correct resolution.
•   Regulatory Accuracy – adhering to statutory/regulatory process requirements when making
    determinations on taxpayer accounts.
•   Procedural Accuracy – adhering to nonstatutory/nonregulatory internal process requirements.
•   Professionalism – promoting a positive image of the IRS by using effective communication
    techniques.
•   Timeliness – resolving an issue in the most efficient manner through the use of proper
    workload management and time utilization techniques.
The information captured on the Data Collection Instrument is then input to an electronic
database, the Embedded Quality Review System. The Embedded Quality Review System,
designed to provide statistically valid results, enables management to identify trends, track
employee performance, and develop training needs. Data from the Embedded Quality Review
System are also used to report national quality measures for accuracy, professionalism, and
timeliness.
The Customer Accuracy, Professionalism, and Timeliness measures are reported to the
IRS Commissioner as part of the IRS’ balanced measures (employee satisfaction, customer
satisfaction, and business results). The IRS uses the three balanced measures to gauge
organizational and employee performance. The Regulatory Accuracy and Procedural Accuracy
measures are reported internally to IRS management to identify trends and training opportunities.
The Customer Accuracy measure is also reported externally to IRS stakeholders (e.g., the
Congress and the Government Accountability Office) and as part of the reporting requirement of
the Government Performance and Results Act of 1993.1




1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).

                                                                                                            Page 23
       Customer Accuracy at Taxpayer Assistance Centers
     Showed Little Improvement During the 2005 Filing Season



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                          Page 24
  Customer Accuracy at Taxpayer Assistance Centers
Showed Little Improvement During the 2005 Filing Season




                                                     Page 25
